   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
         FISCAL YEAR 2006
           Highway Trust Fund

       Report Number: QC-2007-008
      Date Issued: November 14, 2006
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of                       Date:    November 14, 2006
           Audited Financial Statements for Fiscal
           Year 2006, Highway Trust Fund
           Report Number: QC-2007-008

  From:    Calvin L. Scovel III                                 Reply to
                                                                Attn. of:   JA-20
           Inspector General

    To:    The Secretary

           The audit of the Highway Trust Fund (HTF) Financial Statements as of and for the
           year ended September 30, 2006, was completed by KPMG LLP of Washington,
           DC (see Attachment). We performed a quality control review of the audit work to
           ensure that it complied with applicable standards. These standards include the
           Chief Financial Officers Act; Generally Accepted Government Auditing
           Standards; and Office of Management and Budget (OMB) Bulletin 06-03, “Audit
           Requirements for Federal Financial Statements.”

           On August 17, 2006, OMB granted a waiver to the Department for not having to
           prepare comparative financial statements for fiscal years 2006 and 2005, as a
           result of legislative changes to the surface transportation reauthorization law.
           KPMG concluded that the consolidated financial statements presented fairly, in all
           material respects, the financial position of HTF as of September 30, 2006, and its
           net costs, changes in net position, budgetary resources, and reconciliations of net
           costs to budgetary obligations for the year then ended, in conformity with
           accounting principles generally accepted in the United States.

           The report presented one material internal control weakness, three reportable
           conditions, and one instance of noncompliance with laws and regulations.

           Material Weakness
                      1. Financial Management, Reporting, and Oversight
                                                                           2


Reportable Condition
      1. General Controls over Financial Management Systems

      2. Undelivered Orders

      3. Fund Balance with Treasury Reconciliation

Noncompliance with Laws and Regulations

      1. Federal Financial Management Improvement Act of 1996 (FFMIA)

KPMG made 21 recommendations for corrective action; we agree with them and,
therefore, are making no additional recommendations. The Assistant Secretary for
Budget and Programs/Chief Financial Officer concurred with the material
weakness and reportable conditions; generally agreed with the recommendations;
and planned to complete corrective actions. In accordance with DOT Order
8000.1C, the corrective actions taken in response to the recommendations are
subject to follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of representatives of the HTF
agencies, the Office of Financial Management, and KPMG. If we can answer any
questions, please call me at (202) 366-1959 or Rebecca C. Leng, Assistant
Inspector General for Financial and Information Technology Audits, at
(202) 366-1496.

Attachment

                                       #



cc: Federal Highway Administrator
    National Highway Traffic Safety Administrator
    Federal Transit Administrator
    Federal Motor Carrier Safety Administrator
    Federal Railroad Administrator
    Research and Innovative Technology Administrator
